D-2010-025                               December 11, 2009




        Transportation Planning for the Withdrawal
          of DOD Personnel and Assets from Iraq
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
JOPES                         Joint Operation Planning and Execution System
U.S.C.                        United States Code
USCENTCOM                     U.S. Central Command
USTRANSCOM                    U.S. Transportation Command
                                   INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON, VIRGINIA 22202-4704 


                                                                              December 11, 2009

MEMORANDUM FOR DISTRIBUTION

SUBJECT:      T
              	 ransportation for DOD Personnel and Cargo Relocation From the Iraq Drawdown
              (Report No. D2010-025)

We are providing this report for your information and use. The report summarizes our
observations for the audit of Transportation for DOD Personnel and Cargo Relocation From the
Iraq Drawdown (Project No. D2009-D000LC-0240.001). No written response to this report is
required.

This was the first in a series of DOD Office of Inspector General audits that will address the
transportation of troops, support personnel, and equipment during the relocation efforts. The
objective of this audit was to evaluate the planning process used by the U.S. Transportation
Command (USTRANSCOM) in determining how to meet combat troop withdrawal goals by
August 31, 2010. We evaluated the determination of transportation needs, the identification of
transportation methods, and the timeline for relocating troops and their support equipment. We
coordinated our audit efforts with the GAO team that developed the testimony and report,
“Operation Iraqi Freedom, Preliminary Observations on DOD Planning for the Drawdown of U.S.
Forces from Iraq” (GAO-10-179). We have concluded based on our evaluations and observations
that USTRANSCOM and U.S. Central Command (USCENTCOM) have produced a plan that is a
reasonable representation of the transportation needs that have been defined at this point.

Background
In the “Agreement Between the United States of America and the Republic of Iraq on the
Withdrawal of United States Forces from Iraq and the Organization of Their Activities During
Their Temporary Presence in Iraq,” dated November 17, 2008, the parties decided that all U.S.
forces would be withdrawn from all Iraqi territories no later than December 31, 2011. In February
2009, President Obama accelerated the agreement by announcing that all U.S. combat troops
would be withdrawn from Iraq by August 31, 2010.

The Secretary of Defense is responsible for transportation planning and operations within DOD;
the Chairman of the Joint Chiefs of Staff evaluates movement requirements and resources, and
allocates capability when required. USTRANSCOM provides global transportation management
through an integrated transportation and distribution system and through its component
commands. The Services retain responsibility for organizing, training, equipping, and providing
logistics support (including Service-unique transportation) for their respective forces. The
transportation planning process is complex. In the case of the Iraq drawdown, the process requires
the interaction of numerous U.S. and multinational commands and components to ensure its
effective and efficient accomplishment.
USTRANSCOM was established in 1987 as the DOD wartime transportation manager. In 1993,
DOD Directive 5158.4, “United States Transportation Command,” January 8, 1993, established
USTRANSCOM as the DOD single manager for all defense transportation. USTRANSCOM has
combatant command authority over the three transportation component commands—Air Mobility
Command, Military Sealift Command, and Military Surface Deployment and Distribution
Command. It also has responsibility for other organizations supporting DOD transportation
activities and for all transportation assets of the Military Departments except Service-unique or
theater-assigned assets. In September 2003, the Secretary of Defense further designated
USTRANSCOM as the DOD Distribution Process Owner 1 for transportation. USTRANSCOM
provides its customers the transportation planning expertise required during the transportation
planning process. USTRANSCOM can provide information to assist in the development of
alternative courses of action and optimal flow of forces during the transportation planning process.

The Defense Transportation System is the worldwide transportation infrastructure that supports
DOD. The USTRANSCOM Deployment Distribution Operations Center serves as the focal point
to orchestrate and optimize the Defense Transportation System operations in support of the unified
commanders and other customers. The center provides command and control of global mobility
forces and other assets and is the single DOD transportation focal point for customers. Each
geographic combatant command also maintains joint distribution operations centers that
synchronize with USTRANSCOM for distribution, force deployment, and sustainment within
each command’s area of responsibility.

The transportation planning process is governed by numerous statutory and regulatory
requirements. Public laws such as the Cargo Preference Act of 1954 (section 1241b, title 46,
United States Code [46 U.S.C. 1241b]); the Fly America Act (49 U.S.C. 40118); and others must
be taken into consideration when planning and executing transportation for DOD people and
assets. In addition, the Defense Transportation Regulation; DOD Directives, Instructions, and
Joint Publications such as Joint Publication 5-0, “Joint Operation Planning”; and Joint Operation
Planning and Execution System (JOPES) manuals must be part of the planning process.
Consolidated guidance incorporating many of these requirements is included in USTRANSCOM
Handbook 24-2, “Understanding the Defense Transportation System,” January 30, 2009, and in
the USTRANSCOM and United States Joint Forces Command’s publication USTRANSCOM
Handbook 10-20, “Joint Planners Handbook for Deployment Operations,” November 2005.

Transportation Planning Process Results
USCENTCOM has developed a plan for withdrawing all combat troops from Iraq by the
President’s goal of August 31, 2010. USTRANSCOM is responsible for providing transportation
to fulfill this plan. We evaluated the determination of transportation needs, the identification of
transportation methods, the current status of this plan, and whether the plan will meet the
President’s goal.




1
  USTRANSCOM’s Distribution Process Owner’s role is to oversee the overall effectiveness, efficiency, and
alignment of DOD-wide distribution activities including force projection, sustainment, and redeployment or
retrograde operations.


                                                        2

Determination of Transportation Needs
Supported commanders are responsible for identifying the forces and equipment that need to be
moved, the departure and arrival dates, and other details to initiate transportation planning that will
meet their needs. They then communicate these needs to USTRANSCOM. For the drawdown in
Iraq, USTRANSCOM depends on the detailed input from USCENTCOM and its components to
identify which DOD personnel and assets need to be moved, when the moves need to occur, and
the points of embarkation and debarkation. Without up-to-date, reliable input, USTRANSCOM
will not be able to adequately plan for the effective and efficient redeployment of troops and DOD
assets.

USCENTCOM developed its overall plan for the withdrawal of troops in accordance with the
timeline in the agreement between the United States and the Republic of Iraq and the President’s
directive. USCENTCOM updates and refines the plan as additional transportation needs are
identified. USCENTCOM gathers information through joint conferences with its components and
with other commands responsible for theater operations. USCENTCOM and its components then
enter force and equipment movement details into electronic transportation systems such as JOPES
as requirements are identified and quantified. Additional changes to the plan may come in the
form of directives by the President, Secretary of Defense, and the Joint Chiefs of Staff. The plan
can also be updated or revised if there are changes in the assumptions on which the plan is based.

Identification of Transportation Methods
USCENTCOM and its components are responsible for identifying the people and assets to be
transported to or from Iraq. USCENTCOM determines which form of transportation to request
from USTRANSCOM based on USCENTCOM’s business rules. For example, if a component
commander requests air transport for certain items of equipment, the commander should justify
that request because shipment by air is much more expensive than by sea.

According to USCENTCOM officials, the preferred method for shipping for DOD troops and
personnel is air, whereas the preferred method for equipment and other DOD assets is sea. DOD
assets are to be shipped by air only if they meet the criteria established in the USCENTCOM
business rules. A USCENTCOM official responsible for deciding whether to ship by air or sea
said that another primary issue may be time. If a component commander does not or cannot (due
to late notification) make a transportation request early enough to ensure mission-essential
equipment can be sent by sea, the equipment may have to go by air. He said USCENTCOM
always encourages components to make requests in time to use sea whenever possible because of
the difference in cost and limited air asset availability. To use sealift requires validation by
USCENTCOM 50 days prior to the earliest arrival date; airlift requires validation 21 days prior to
the earliest arrival date. If USCENTCOM receives a request for validation for items that are
needed in fewer than 50 days, the requirement may have to go by air. USCENTCOM validates
component command requirements in JOPES, including the desired mode of transportation.

USCENTCOM and USTRANSCOM then determine which transportation methods will be used—
air, sea, or a combination of the two. USTRANSCOM pulls the JOPES data to determine whether
it has the capability to meet the transportation request as submitted. If USTRANSCOM is not able
to meet the request as submitted, the command notifies the requester and presents alternatives.
The requester may be asked to shift dates for the request or prioritize its other requests.


                                                  3

Status of Transportation Planning
The USCENTCOM drawdown plan was updated during a recent Force Flow conference held at
USTRANSCOM. Because this is the plan on which USTRANSCOM is basing its transportation
planning activities, we attended the conference and reviewed the updated plan.

The Force Flow conference brought together the commands and components involved in planning
the transportation of troops and assets from Iraq during the drawdown. During the conference,
plans were updated daily to reflect pertinent additional information that was entered into JOPES as
requirements were being defined and refined by the component commands. USCENTCOM and
USTRANSCOM attempted to build some flexibility into the plan to allow for some of the
probable scenarios they would have to manage, such as weather, but they were unable to foresee
all contingencies. 2 In addition, all of the detailed data needed to do a complete analysis of the Iraq
drawdown had not been entered into the transportation system at that time. Although the number
of combat troops to be withdrawn from Iraq is defined, the DOD assets supporting these troops
have not been fully defined. Efforts to identify all of the equipment and other assets that will be
removed from Iraq are still underway. We were told by USCENTCOM officials that the
remaining information for combat troop withdrawals should be in the system by January 2010.

USCENTCOM and USTRANSCOM officials stated in the final briefing for the conference that
they will continually revisit the plan as circumstances and situations unfold. Officials plan
additional meetings in theater and additional Force Flow conferences as the drawdown progresses.

Timeline for Relocation of Troops and Support Equipment
At the time of our audit, USTRANSCOM and USCENTCOM officials concluded that, barring
unforeseen events, they would make the deadline for combat troop withdrawal by the President’s
timeline of August 31, 2010. The drawdown has already begun.

Summary of Observations
We observed that USCENTCOM and USTRANSCOM were following DOD guidelines and
procedures applicable to the transportation planning process. They also conducted tests of the data
entered into JOPES during the Force Flow conference to ensure they were accurate and fell within
the range of USTRANSCOM capabilities to support the proposed movement of troops and assets.

During the Force Flow conference, USCENTCOM and USTRANSCOM collaborated with their
components to prepare a plan that contained the transportation requirements identified at the time
of the conference. They addressed redeployment of combat troops from Iraq by August 31, 2010,
and deployment of other troops to Iraq. The combat troops to be moved are defined; however, the
timing of the movements could be altered depending on contingencies.

The DOD assets that are to be moved and the methods for transporting these assets are still being
identified. In addition, the potential impact of moving DOD contractors and contractor assets
remains to be defined.



2
    Some of these contingencies were addressed in the recent GAO testimony and report (GAO-10-179).


                                                         4

We have concluded based on our evaluations and observations that USTRANSCOM and
USCENTCOM have produced a plan that is a reasonable representation ofthe transportation
needs that have been defined at this point. The transportation plan is still fluid. Whether it is fully
executable cannot be determined. Therefore, we are making no recommendation in this report.

This memorandum closes the subject audit, the scope and methodology for which are attached.
We appreciate the courtesies extended to the staffby the U.S. Transportation Command, the U.S.
Central Command, and their component commands during the audit.

If you have any questions on the report, please contact me or




                                              Alice F. Carey
                                    Acting Assistant Inspector General
                                    Readiness, Operations, and Support


Attachment:
As stated




                                                   5

DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
  LOGISTICS
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL OFFICER
COMMANDER, U.S. CENTRAL COMMAND
COMMANDER, U.S. TRANSPORTATION COMMAND
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
  COMPTROLLER)
DIRECTOR, JOINT STAFF
DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY




                                 6

Attachment: Scope and Methodology
We conducted this audit from June through December 2009 in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the assessment
to obtain sufficient, appropriate evidence to provide a reasonable basis for our observations based
on our objectives. We believe that the evidence obtained provides a reasonable basis for our
observations based on our audit objectives.

We evaluated the joint planning process used by combatant commanders for planning for the
drawdown of people and assets that will need to be moved; the methods to be used in making
these moves—air, sea, and land; and potential transportation issues that could affect the timely and
effective withdrawal of people and assets from Iraq. We conducted audit work at
USTRANSCOM, the functional combatant command responsible for transporting DOD personnel
and assets, and at USCENTCOM, the geographic combatant command responsible for the Iraq
drawdown.

We identified relevant component commands, criteria, and planning documents. In addition, we
reviewed available information on such factors as port capacities, available transportation methods
(air, sea, and land), and contingencies that could impact USTRANSCOM’s ability to accomplish
the task within the specified time frames. Further, we reviewed statutes, Federal regulations, and
organizational guidance to ensure the planning process complied with the guidance. We did not
use computer-processed data, nor did we do an assessment of the reliability of computer-processed
data used in the planning process. We examined audit reports for prior coverage and interviewed
officials involved in the joint planning of the drawdown. We examined GAO Report No. GAO-
08-930, “Operation Iraqi Freedom, Actions Needed to Enhance DOD Planning for Reposturing of
U.S. Forces from Iraq,” September 10, 2008, and GAO Report No. GAO-10-179, “Operation Iraqi
Freedom, Preliminary Observations on DOD Planning for the Drawdown of U.S. Forces from
Iraq,” November 2, 2009, for prior coverage.




                                                 7

